No. ________
IN THE

Supreme Court of the United States
________________
CENTER FOR BIOLOGICAL DIVERSITY, ANIMAL LEGAL DEFENSE FUND,
DEFENDERS OF WILDLIFE, AND SOUTHWEST ENVIRONMENTAL CENTER,
Petitioners,
v.
THE U.S. DEPARTMENT OF HOMELAND SECURITY1,

Respondents.
CERTIFICATE OF SERVICE OF APPLICATION FOR AN EXTENSION OF
TIME WITHIN WHICH TO FILE A PETITION FOR A WRIT OF
CERTIORARI TO THE UNITED STATES DISTRICT COURT FOR THE
DISTRICT OF COLUMBIA

I, Anchun Jean Su, hereby certify that on this 21st day of October, 2019, one
copy of the Application for an Extension of Time Within Which to File a Petition for
Writ of Certiorari to the United States District Court for the District of Columbia
was sent via first-class U.S. mail, and via email, to:
Solicitor General of the United States
Room 5616
Department of Justice
950 Pennsylvania Avenue, N.W.
Washington, D.C. 20530-0001
supremectbriefs@usdoj.gov
All parties required to be served have been served.

In light of Kevin McAleenan’s recent departure from the position of Acting Secretary
of Homeland Security, Petitioners have removed the Secretary of Homeland Security as
lead respondent and shall substitute in the newly appointed Secretary when confirmed
pursuant to Federal Rule of Civil Procedure 25(d).
1

October 21, 2019
/s/ Anchun Jean Su
Anchun Jean Su
Center for Biological Diversity

